SEC.gov |  Security of External Databases
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Security of External Databases
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
AUDIT MEMORANDUM No. 25
November 7, 2002
To: Kenneth FogashJonathan KatzCynthia PlischJames McConnell
From: Walter Stachnik
Re: Security of External Databases
ACCOUNT CANCELLATION AND PASSWORD SHARING
Based on information provided by the Library, we recently found that the Dow Jones Interactive account of a former Commission employee had incurred extensive charges.  The account had not been cancelled timely when the employee left the agency.
We also found that co-workers in the former employee's office shared their passwords, in the belief that the Commission paid a flat fee for the service.
1Therefore, the actual user(s) of the Dow Jones account could not be identified.
Besides Dow Jones Interactive (with 1472 users), Commission staff use a variety of external databases.   The Lexis/Nexis service is the most widely used, with about 2770 total users.
We subsequently reviewed a June 2002 Lexis/Nexis listing of active users.  The listing included four former employees with active accounts.  We provided their names to the Office of Information Technology (OIT) for cancellation.
OIT issued updated Operating Procedures for Lexis/Nexis on July 24, 2002, which should enhance access controls.  Under the new procedures, each office's service coordinator (
i.e.
, the Administrative Contact) is responsible for adding and canceling users, rather than OIT.  Since administrative contacts deal directly with new and departing employees, they are in a better position than OIT to ensure that user accounts are current.
As an additional control, OIT will send the administrative contacts a listing of authorized users every six months.  The contacts will then be expected to review the listing and make sure that only authorized users have accounts.  OIT has posted the updated procedures on the Intranet, but has not yet informed administrative contacts about them.
The Library has developed a proposal to further improve password management for external databases such as Lexis/Nexis.  The proposal includes training of users, and development of policies and procedures for password management.  To implement the proposal, additional staff will be required, according to the Library.
Recommendation A
The Office of Information Technology should inform administrative contacts regarding the updated procedures for external database password management (
e.g.
, by an e-mail or written memorandum).
Recommendation B
The Library (in the Office of the Secretary) should make a budget request for the staff needed to implement its proposal described above.
DOWNLOADING REPORTS
According to the Library staff, some employees designate their personal e-mail accounts (such as Yahoo Hotmail) for downloading of Lexis/Nexis reports.   Commission policy is that personal accounts should not be accessed at work, since the access poses a security risk.  Moreover, employees working at home can now access their Commission e-mail from home, so use of personal e-mail accounts for Lexis/Nexis reports is unnecessary.
Recommendation C
In its user training (see above), the Library should tell users that Lexis/Nexis reports should be sent to their government e-mail account, not their personal account.
cc:
Mark Brickman                                                                                                                    George Eckard                                                                                                                            Gene Johnson                                                                                                                           Darlene Pryor                                                                                                                              Mark Radke                                                                                                                           Jayne Seidman                                                                                                                           Derek Scarbrough
Footnotes
1  Under the Dow Jones and Lexis/Nexis contracts administered by the Library, the Commission does pay a flat fee annually.  However, usage above a defined amount increases the charge for the following year.  The fiscal year 2003 Lexis/Nexis contract limits usage to authorized users and specifically prohibits password sharing.  In addition, password sharing violates Commission policy and compromises information technology security, which is a general responsibility of the Office of Information Technology.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us